No. 19-1186

 

IN THE
Supreme Court of the Anited States

JOSHUA BAKER, in his official capacity as Director, South Carolina Department of
Health and Human Services,

Petitioner,

v.

PLANNED PARENTHOOD SOUTH ATLANTIC; JULIE EDWARDS,

Respondents:

PROOF OF SERVICE

Thereby certify that all parties required to be served, have been served, on
this 15th day of September, 2020. In accordance with Supreme Court Rule 29.3,
three (3) copies of the REPLY BRIEF FOR PETITIONER were placed with Federal
Express, Priority Overnight, by Byron S. Adams, Legal & Commercial Printers,
1615 L Street NW, Suite 100, Washington, DC 20036, addressed as follows:

Alice Clapman

Planned Parenthood Federation of America
1110 Vermont Avenue, NW

Suite 300

Washington, DC 20005

Executed on September 15, 2020

 

Burscu Law, PLLC

9339 Cherry Valley Ave SE #78
Caledonia, MI 49316

(616) 450-4235
jbursch@burschlaw.com
